                                 NATIONAL SCIENCE FOUNDATION
                                        4201 Wilson Boulevard
                                      ARLINGTON, VIRGINIA 22230




     OFFICE OF
INSPECTOR GENERAL


  Memorandum

  Date:             February 21,2008

  To:               Thomas N. Cooley
                    Chief Financial Officer and Director
                    Office of Budget, Finance, and Award Management (BFA)

                    Richard A. Behnke
                    Division Director (Acting)


  From:
               "/   Associate 'fnspector General of Audit

  Subject:          OIG Report Number 08-1-003
                    Audit of the University Corporation for Atmospheric Research's Purchase
                    Card and Timekeeping Systems

         Attached is the final report on the audit of the purchase card and timekeeping
  systems of the University Corporation for Atmospheric Research (UCAR). We have
  summarized UCAR's comments after the recommendations for each audit finding and
  provided our response to these comments. The full text of UCAR's comments is
  included as the Appendix.

          The audit found that while the internal control structure for UCAR's purchase
  card program contained basic characteristics of an effective internal control system, they
  were not always implemented or effective in preventing or detecting fraud. In addition,
  the audit found that UCAR was not accurately recording or supporting labor charges.
  Furthermore, UCAR did not have detailed written justification to support over 80 percent
  of the sampled labor costs UCAR transferred between awards. Without appropriate
  controls to ensure that goods and services are for authorized business purposes and labor
  efforts are accurately allocated, NSF has less assurance that purchase and salary charges
  reflect actual expenses incurred.

          We consider the UCAR internal control procedural weaknesses identified in the
  audit findings to be significant. Accordingly, we request that your office work with
  UCAR to develop a written Corrective Action Plan detailing specific actions taken and/or
planned to address each audit recommendation. Milestone dates should be provided for
corrective actions not yet completed.

        To help ensure the recommendations are resolved within six months of issuance
of the audit report pursuant to Office of Management and Budget Circular A-50, please
coordinate the development of the Corrective Action Plan with our office during the
resolution period. Each audit recommendation should not be closed until NSF
determines that UCAR,has adequately addressed the recommendation and proposed
corrective actions have been satisfactorily implemented.

       We appreciate the cooperation that was extended to us during our review. If you
have any questions, please feel free to call James Noeth at 703-292-5005 or Kenneth
Stagner at 303-3 12-7655.

Enclosure

cc:   Clifford A. Jacobs, Section Head, UCAR and Lower Atmospheric Facilities
               Oversight Section, (GEOIATM)
      Bart Bridwell, Office Head, Cooperative Support, (BFADACS)
      Mary F. Santonastasso, Division Director, Division of Institutional and Award
               Support (BFADIAS)
      David Elizalde, Director, Division of Acquisition and Cooperative Support
               (BFADACS)
  Audit of University Corporation for
        Atmospheric Research
Purchase Card and Timekeeping Systems



      National Science Foundation
        Office of Inspector General


                   Date

             February 21, 2008

               OIG 08-1-003
        REPORT RELEASE RESTRICTION

THIS REPORT MAY NOT BE RELEASED TO ANYONE OUTSIDE THE
NATIONAL SCIENCE FOUNDATION WITHOUT ADVANCE APPROVAL
BY THE NSF OFFICE OF INSPECTOR GENERAL.     THE ONLY
EXCEPTION IS AN AGENCY INVOLVED IN NEGOTIATING OR
ADMINISTERING NSF AWARDS.    THE INFORMATION IN THIS
REPORT SHOULD BE TREATED AS CONFIDENTIAL AND MAY NOT
BE USED FOR PURPOSES OTHER THAN ORIGINALLY INTENDED
WITHOUT PRIOR CONCURRENCE FROM THE NSF OFFICE OF
INSPECTOR GENERAL.
Executive Summary
The University Corporation for Atmospheric Research (UCAR) is a consortium of over 100
university members and affiliates that receives over 90 percent of its funding from NSF and
other federal agencies. In July 2004, UCAR discovered the fraudulent use of one of its purchase
cards, and referred the matter to the NSF Office of Inspector General's (OIG's) Office of
Investigations. With UCAR’s assistance and cooperation, the OIG completed its investigation of
the purchase card fraud and concluded that a former UCAR employee violated criminal statutes.
The OIG investigators referred the matter to the U.S. Attorney’s Office for the District of
Colorado, and on June 7, 2007 the former employee was sentenced to 16 months incarceration
and ordered to make restitution in the amount of $18,214. Concerned that serious internal
control deficiencies may exist in UCAR's purchase card program, OIG investigators referred the
matter to the OIG Office of Audit.

The OIG, therefore, conducted an audit to evaluate whether UCAR internal controls are adequate
to properly manage, account for, and monitor purchases made with its purchase cards. In
addition, because a 2003 OIG survey of UCAR identified concerns with UCAR’s internal
controls over time and effort reporting and cost transfers between awards, we added an audit
objective to also evaluate whether UCAR salaries and wages were properly and accurately
charged to federal awards.

The audit found that while the internal control structure for UCAR's purchase card program
contained basic characteristics of an effective internal control system, they were not always
implemented or effective in preventing or detecting fraud. Although UCAR has revised its
purchase card policy and addressed many of the significant deficiencies that existed at the time
of the fraud, further improvements are needed to ensure that the $5 million of goods and services
purchased annually with UCAR purchase cards are for authorized business purposes.

Furthermore at the time the fraud occurred, UCAR had not filled the internal audit position,
which was vacant for a five year period. If, during this gap, an internal auditor had been in
place, weaknesses in the purchase card program may have been more timely identified and
corrected, and possibly have prevented the fraud. An internal auditor was hired in 2006 and
conducted an audit of the purchase card program, finding many of the same problems cited in
this audit. However, the auditor only issued a draft audit report on the purchase card program
before leaving UCAR in February 2007, after slightly more than one year of employment. The
internal auditor position remained vacant through the end of our audit field work in July 2007,
and the auditor’s report on the purchase card program had not been finalized. UCAR's size,
volume of federal awards, and administrative and business environment complexity warrant
having an internal auditor. Having the internal auditor position filled on a permanent basis is an
important preventative control that could help UCAR avoid the potential cost and embarrassment
of future fraud.

In addition, the audit found that UCAR was not accurately recording or supporting labor charges.
Specifically, we found employees were not recording all of their hours worked, charged
budgeted rather than actual hours worked, earned and used unrecorded compensatory time even
though UCAR does not officially allow compensatory time, and inaccurately recorded their time


                                                i
as worked when they were on leave. Furthermore, UCAR did not have detailed written
justification to support over 80 percent of the sampled labor costs UCAR transferred between
awards. Without a reliable basis of support, UCAR's $58 million of labor costs charged to NSF
and other federal agencies are at risk of not being accurately allocated. UCAR needs to develop
a timekeeping system to accommodate salaried employees that work more than 80 hours in a pay
period, provide its employees specific guidance on timecard completion, and provide more
oversight of accounting for leave and transferring of labor costs.

UCAR agreed with most of the audit findings and recommendations but believes it would not be
cost effective to conduct periodic inventories of items purchased under $5,000 that are
vulnerable to theft. UCAR stated that it had implemented procedures to address many of the
other weaknesses we identified in its purchase card program and is addressing issues with its
timekeeping system.

While we understand UCAR's desire to be cost effective, we affirm our position that conducting
inventories, even at a minimum level, is necessary to identify missing items that are vulnerable
to theft. Furthermore, we are concerned that UCAR actions may not sufficiently address our
recommendations regarding monitoring the use of purchase cards, separating the receiving
function from the ordering function for items purchased, performing periodic risk assessments,
conducting audits by the internal auditor on purchase card program, and developing a time
keeping system that meets OMB requirements. We have summarized UCAR’s comments and
provided our response after the recommendations in the report. Also, UCAR’s comments in its
entirety are included in the appendix.




                                               ii
                               TABLE OF CONTENTS


                                                                          Page

EXECUTIVE SUMMARY                                                           i
BACKGROUND                                                                  1
OBJECTIVES, SCOPE AND METHODOLOGY                                           3
FINDINGS AND RECOMMENDATIONS
     UCAR Needs to Improve Internal Controls over Purchase Cards            4
     UCAR Needs to Enhance Processes for Recording and Reporting Labor     15

APPENDIX – UCAR’S Comments to Draft Report                                 21


                                    ACRONYMS

COSO                      Committee of Sponsoring Organizations
FY                        Fiscal Year
NCAR                      National Center for Atmospheric Research
NSF                       National Science Foundation
OIG                       Office of Inspector General
OMB Circular A-110        U.S. Office of Management and Budget Circular A-110
OMB Circular A-122        U.S. Office of Management and Budget Circular A-122
OMB Circular A-133        U.S. Office of Management and Budget Circular A-133
UCAR                      University Corporation for Atmospheric Research
UOP                       UCAR Office of Programs




                                          iii
 BACKGROUND
 The University Corporation for Atmospheric Research (UCAR), a nonprofit corporation located
 in Boulder, Colorado, is a consortium of over 100 university members and affiliates. It was
 founded in 1959 to enhance the computing and observational capabilities of universities and to
 focus on scientific problems that are beyond the scale of a single university. UCAR’s mission
 also includes understanding the behavior of the atmosphere and the global environment and
 fostering the transfer of knowledge and technology for the betterment of life on earth. UCAR
 works with many national and international meteorological institutions through a variety of
 programs.
 The two major research components of UCAR are the National Center for Atmospheric Research
 (NCAR) and the UCAR Office of Programs (UOP). NCAR is a Federally Funded Research and
 Development Center sponsored by the National Science Foundation (NSF). NSF and other
 federal agencies provide funding for NCAR, which has a large scientific staff dedicated to
 exploring and understanding the atmosphere and its interactions with the sun, the oceans, the
 biosphere, and human society. In addition to conducting research, NCAR provides members,
 affiliates, and others with tools such as aircraft and radar to observe the atmosphere and with the
 technology and assistance to interpret and use these observations, including supercomputer
 access, computer models, and user support. UOP consists of eight programs which create,
 conduct, and coordinate projects that strengthen education and research in the atmospheric,
 oceanic, and earth sciences.
 As of October 2006, UCAR employed 1,417 employees: 883 under the NCAR program; 250
 under UOP programs; and most of the remaining 284 employees in corporate and administrative
 offices. For FY 2006, UCAR expended $182 million, of which $168 million was federal funding.
 NSF is UCAR's primary sponsor, providing $105 million, or 63 percent of the federal funding in
 that year. Nine other federal agencies provided the remaining $63 million.1 We have
 summarized UCAR’s expenditures below.


                                               Total Expenditures
                                        For Fiscal Year Ending 09/30/2006


                                                                            OTHER UCAR
                                            NCAR                    UOP                           GRAND TOTAL
                                                                             PROGRAMS

NSF Expenditures                       $90,791,662          $14,447,295         $409,562            $105,648,519
Other Federal Agency Expenditures       37,623,940           24,982,788          281,385              62,888,113
Subtotal Federal Expenditures         $128,415,602          $39,430,083         $690,947            $168,536,632
Non-Federal Expenditures                10,226,082            2,700,862          969,629              13,896,573
Totals                                $138,641,684          $42,130,945        $1,660,576           $182,433,205




 1
  The nine other federal agencies include: Department of Commerce, National Aeronautics and Space
 Administration, Department of Defense, Department of Energy, Department of Transportation, Department of State,
 Department of Agriculture, Department of Interior, and the Environmental Protection Agency.

                                                        1
Concern with Internal Controls over UCAR's Purchase Card Program
Rules and regulations governing federal funding require UCAR to establish and maintain
effective internal controls that help detect and prevent illegalities related to its federally funded
programs. In July 2004, UCAR discovered the fraudulent use of one of its purchase cards,2 and
referred the matter to the NSF Office of Inspector General's (OIG's) Office of Investigations.
With UCAR’s assistance and cooperation, the OIG completed its investigation of the purchase
card fraud and concluded that a former UCAR employee violated criminal statutes. The OIG
investigators referred the matter to the United States Attorney’s Office for the District of
Colorado, and on June 7, 2007 the former employee was sentenced to 16 months incarceration
and ordered to make restitution in the amount of $18,214. The perpetrator fraudulently
purchased over 90 items, which included Apple® iPods®, numerous books, camping supplies,
household items such as hand-painted bowls, a swimming pool cover, and a dog bed.
Subsequently, many of the items were sold through eBay®. The fraud began on November 18,
2003, and continued approximately 8 months until finally detected on July 22, 2004. Purchases
were made and entered in UCAR’s accounting system with false descriptions and received by the
perpetrator without any UCAR’s staff involvement or knowledge. Concerned with the potential
for serious internal control deficiencies, OIG investigators referred the matter to the OIG Office
of Audit.
In FY 2006, UCAR’s purchasing card program involved 150 cardholders and transactions
totaling $5 million of goods and services. Cards are only allowed for authorized business
purposes and personal use is prohibited. Most cardholders are authorized to spend up to $5,000
per transaction without prior approval and monthly spending limits range from $5,000 to
$25,000 but are typically set at $10,000. The responsibility for ensuring cards are appropriately
used extends beyond the cardholder to management, as immediate supervisors are required to
review and approve card purchases of their subordinates on a monthly basis to authenticate the
business purpose of the items acquired.

Interest in Internal Controls over UCAR's Salary and Wage Charges

Similar to funds spent on procurement, UCAR has the responsibility to establish and maintain
effective internal controls to protect the integrity of its $58 million annual payroll, a majority of
which is charged directly to federal awards. Since FY 2000, UCAR has used an electronic
timecard to allocate staff costs to its federal and non-federal research projects. Employees access
their timecards, which cover a two week period, using a log in identification and password.
Salaried employees can only record 8 hours worked per day or 80 hours for each two week pay
period. However, non-salaried (hourly) employees, with supervisory approval, can record more
than 8 hours worked per day. Supervisory approval of timecards is required for hourly
employees but optional for salaried employees. Because a significant amount of UCAR's payroll
is allocated to over 400 federal awards and the OIG had not previously audited UCAR’s
timecard system, we included it in the scope of our review.

2
 UCAR has several types of credit cards such as travel cards, which are used by staff for their official travel costs
and paid by them through reimbursements, and purchase cards, which are paid by UCAR for acquiring goods and
services.


                                                           2
OBJECTIVES, SCOPE AND METHODOLOGY
The objectives of our audit were to evaluate whether UCAR internal controls are adequate to
properly manage, account for, and monitor purchases made with purchase cards, and whether
salaries and wages were properly and accurately charged to federal awards in accordance with
award requirements. Our review focused only on controls over UCAR’s purchasing and payroll
systems and did not address other UCAR grant management and accounting processes.

To achieve our objectives, we reviewed federal regulations along with UCAR’s policies and
procedures related to purchase card operations and labor effort accounting and reporting. We
interviewed UCAR staff to gain an understanding of its processes to account for both purchase
card acquisitions and labor effort activity, and to determine if the accounting processes were in
compliance with UCAR and federal rules. We interviewed employees involved in the purchase
card program to determine the extent and effectiveness of the implementation of UCAR's 2005
purchase card policy. We also interviewed UCAR Property Managers to determine the extent of
UCAR's controls over the receipt and maintenance of property acquired using purchase cards. In
addition, we reviewed and relied upon computer-processed data and information obtained from
UCAR and NSF regarding purchase card and salary and wage transactions. The data included
general ledger entries and computer generated worksheets. We evaluated the reliability of this
data by comparing it to source documentation obtained as part of our review.

To gain an understanding of the internal controls for recording time and effort to support the
allocation of salaries and wages to federal research awards, we selected and interviewed a
sample of 20 employees. The sample represented employees that occupied a variety of positions
and jobs, along with different pay rates, within the UCAR organization. Our sample contained
15 employees working mainly on NSF awards and five employees receiving funds both from
NSF and other sources.

We also selected and reviewed 45 labor cost transfer entries from October 2004 through May
2007 to test for compliance with federal regulations and UCAR’s policies and procedures. Our
initial sample contained 30 cost transfer entries from NCAR. We selected an additional 15 from
UOP including five that were recently completed. We determined the purpose of the labor cost
transfer by interviewing division administrators and employees whose labor was transferred.

Our review period was from October 2004 through May 2007. We conducted our audit work
from August 2006 through July 2007 at various UCAR offices in Boulder, Colorado. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. Our audit included tests of accounting
records and audit procedures we deemed necessary to address the audit objectives.




                                                3
1. UCAR Needs to Improve Internal Controls over Purchase Cards
Federal regulations require entities receiving federal awards to establish and maintain effective
internal controls that help ensure taxpayers’ dollars are properly spent and to detect and prevent
fraud, waste and abuse. This includes ensuring effective management and use of purchase cards.
UCAR’s internal controls over its purchase card program were not effective in preventing or
detecting approximately $18,000 of fraudulent purchases in 2004. In response to the fraud,
UCAR revised its purchase card policy in 2005 and again in 2007 to address many significant
deficiencies. However, more improvements are needed to ensure the $5 million of goods and
services purchased annually with UCAR purchase cards are for authorized business purposes.

Internal Controls Need Improvement to Safeguard Purchase Card Procurements

OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements With
Institutions of Higher Education, Hospitals, and Other Non-profit Organizations, requires
entities receiving federal awards to establish and maintain effective internal controls that help
detect and prevent fraud, waste, and abuse in federal programs. Furthermore, OMB Circular
A-133, Audits of States, Local Governments, and Non-Profit Organizations, includes guidance in
its compliance supplement to assist non-profit entities, such as UCAR, establish and maintain an
effective system of internal control. OMB guidance describes five characteristics of an effective
internal control system that were initially developed and promulgated in 1992 by well known
executive management groups and audit organizations. These entities, as part of a private sector
organization, the Committee of Sponsoring Organizations (COSO), studied fraud in business
accounting systems and made recommendations to reduce its occurrence. The COSO study took
more than three years and included extensive research and discussions with corporate leaders and
the academic community. While OMB does not mandate that non-profit grant recipients use
COSO’s integrated framework for internal controls, it is an industry standard used by public,
private, and non-profit organizations as an effective model to help detect and prevent fraud.
OMB describes the five elements of COSO’s integrated framework for internal controls as
follows:3

Control Activities: The policies and procedures that help ensure management’s directives are
carried out.

Information and Communication: The processes that identify, capture, and exchange
information in a form and time frame that enable staff to carry out their responsibilities.

Monitoring: The processes that assess the quality of internal control performance over time.

Risk Assessment: The entity’s identification and analysis of risks relevant to achievement of its
objectives, forming a basis for determining how the risks should be managed.



3
    OMB Circular A-133, Compliance Supplement, Part 6, “Internal Control” dated March 2007


                                                        4
Control Environment: The tone of an organization, influencing the control consciousness of its
people. It is the foundation for all other components of internal control, providing discipline and
structure.

Although UCAR’s internal control structure for its purchase card program addressed all of the
components of COSO’s suggested framework, we found deficiencies in each area that
contributed to the fraud not being detected. UCAR’s policies and procedures established control
activities for its purchase card program, but some of these controls were not implemented.
Information was collected to assist management in detecting purchase illegalities, but some key
information was not provided to the appropriate staff to carry out their responsibilities.
Monitoring activities over purchases also needed improvement. UCAR conducted a risk
assessment of the purchase card program at the time the fraud was discovered but should
periodically conduct assessments for determining how new risks should be managed. Overall,
improving all the control areas as suggested would set the proper tone in providing discipline and
structure for the UCAR staff to detect and prevent fraud in the purchase card program.

The next section specifically identifies the deficiencies that UCAR needed to correct at the time
the fraud occurred. Following it, we identify the corrections that UCAR has implemented and
list outstanding corrective actions needed to strengthen the purchasing card program by
implementing COSO’s framework for an effective internal control system.

Control Activities

We noted deficiencies in three UCAR control activities that each contributed to the fraud not
being detected in a timely manner. Internal control effectiveness was diminished as a
collaborative result of control activities not being performed.

¾ Supervisors Were not Required to Review Receipts

A key control activity mandated by UCAR’s policies and procedures at the time of the fraud in
2003 was that an approving official (AO), who may or may not be the employee's direct
supervisor, review and approve each cardholder’s purchases monthly. To help ensure the
validity of purchases, cardholders were required to maintain receipts supporting each purchase.
Receipts are source documentation that provide an independent description, amount, and cost of
items purchased. Each month, cardholders were required to download an electronic list of their
transactions and reconcile it with their records.

While AOs were required to approve these transactions each month, they were not specifically
required to review the receipts as part of their process. Furthermore, in the specific instances
involving the fraud, the responsible AO did not review, in a timely manner, the list of purchases
and the receipts of the cardholder who made the fraudulent purchases. Rather, the AO requested
all receipts for a seven-month period at one time. The cardholder used the time delay
advantageously in claiming to have lost the supporting receipts. Had xx requested and reviewed
receipts each month to verify the purchases, he would have realized the purchases were
misrepresented in the accounting system. The cardholder concealed the fraudulent purchases by
entering into the accounting system misleading descriptions of the purchased items. For


                                                 5
example, xxx entered “Apple® computer equipment" into the accounting system for Apple®
iPods®. The AO approved these purchases by relying on the descriptions included in the UCAR
accounting system since the cardholder claimed to have lost the receipts. Because the AO was
not required to review receipts and timely approve purchases, this materially degraded the
effectiveness of UCAR’s internal controls to prevent or detect the fraudulent purchases.

The opportunity increases for cardholders to make fraudulent purchases without being detected,
when purchases are not independently approved by reviewing source documentation or not
approved in a timely manner. This opportunity is significant due to the number of cardholders
and amount of funds spent by cardholders. In FY 2006, approximately 153 UCAR purchase
cardholders purchased over $5 million of items.

¾ Responsibility for Ordering Not Segregated from the Receiving Process

Separating key responsibilities amongst different staff, such as ordering and receiving goods and
services, is another control activity that helps decrease the likelihood of fraud. Such segregation
of ordering and receiving limits an organization’s exposure to staff purchasing, accepting, and
recording goods and services that are unauthorized by management. Separating the ordering and
receiving responsibilities is a fundamental principle of an effective internal control system and
particularly critical in purchase card programs, such as UCAR's, where the cardholder is
responsible for ordering the goods, processing the invoices, and assigning descriptions to
purchase transactions in the accounting system.

However, UCAR’s purchase cardholders are able to order and receive delivery of items they
purchase. Regarding the 90 fraudulent purchases, UCAR’s policy in effect during the 2004 fraud
did not require receiving reports. The fraud was discovered after the employee was dismissed
for reasons unrelated to the fraud and resold Apple® iPods® were returned by their buyers to
UCAR’s shipping and receiving department. Thus, there was an increased risk of fraudulent
purchases since the person making the purchases did not have to collaborate with another person
involved in receiving the purchases.

UCAR’s past and current policy does not require the segregation of ordering and receiving of
items acquired with purchase cards. Furthermore, UCAR’s receiving department does not have
access to the purchase card system to verify items received match the description of the items
entered by the purchase cardholder into the UCAR purchase card system and recorded as an
expense in the accounting system. Therefore the lack of an effective approval process combined
with inadequate segregation of duties allowed the employee and potentially others to misuse
purchase cards and not be detected.

¾ Inventory of Equipment is Not Required for Items Prone to Theft and Costing Under $5,000

Taking inventory of equipment is an effective control activity to ensure all purchased equipment
is accounted for. It assists management in identifying missing and unnecessary equipment.
OMB Circular A-110 requires awardees to conduct a physical inventory of all equipment and to
reconcile the results with the equipment records at least once every two years. Any differences
between quantities determined by the physical inspection and those shown in the accounting


                                                 6
records must be investigated to determine the causes of the missing equipment. This inventory
requirement applies to all equipment with an acquisition cost of $5,000 or more per unit but
lower limits may be established.

Consistent with OMB policy, UCAR set lower limits for items vulnerable to theft. UCAR’s
Property Manual encourages, but does not require, that each division’s property administrator
maintain property records accounting for purchased items costing less than $5,000. UCAR
allows this flexibility to avoid the burden of tracking small dollar items not vulnerable to theft.

However, we found that UCAR did not conduct inventories for items costing less than $5,000
which are susceptible to theft. Knowing that an inventory would not be conducted enabled the
dishonest purchase cardholder to re-sell purchased goods with little concern that they would be
identified as missing. Also, the lack of an inventory to verify the existence of small dollar
equipment prone to theft increases the likelihood of theft or loss of other equipment.
Furthermore, although we did not identify divisions not maintaining a list of inventoried items
costing less than $5,000, property managers within each division have the discretion to maintain
records of this equipment. Having this discretion could allow managers to decide in the future to
not maintain records of the equipment susceptible to theft.

The UCAR Property Manual does not require an inventory be conducted to verify the existence
of vulnerable property, and does not require that each division’s property administrator maintain
property records accounting for purchased items costing less than $5,000. As evidenced by the
fraud, allowing managers to exercise such discretion, especially unchecked, results in
inconsistent, incomplete, and inadequate accountability of equipment under $5,000.

Information and Communication

¾ Available Reports Not Provided to Users

An important part of the COSO framework for an effective internal control system is the process
of timely identifying, collecting, and disseminating information that managers need to carry out
their responsibilities, including properly monitoring and overseeing the purchase card activity.
To ensure all purchases and transactions are authorized and necessary, supervisors of
cardholders, division managers, and other managers of the purchase card program must receive
and review reports about the purchases that have been made. These reports should be used by
employees at different stages in the purchase process and contribute to the overall effectiveness
of UCAR’s internal control system.

UCAR staff had key information to assist supervisors of cardholders and other managers in
detecting improper and illegal purchases but it was not provided to the appropriate staff. For
example, UCAR’s Finance and Administration generated informational reports maintained by
the purchase card vendor, JP Morgan Chase®, which identify spending patterns, denied
transactions, and disputes. However, UCAR did not provide these reports to supervisors,
division managers, or purchase card managers for their use in overseeing and monitoring
purchase card acquisitions. In addition, Finance and Administration generated reports showing




                                                  7
the status of monthly purchases that had not been approved by the supervisors; however, these
were not distributed either.

This ineffective communication contributed to the fraudulent purchases. The purchase card
reports could have highlighted irregular or unusual purchase activity by the cardholder as well as
lapses in supervisory review and monitoring that might have exposed the fraud. Information
must not only be properly distributed, but also used, analyzed, and reviewed by supervisors,
division managers, and purchase card managers. They must receive a clear message from top
management of the importance of control responsibility and understand their role in the internal
control system.

Monitoring

¾ Monitoring of Compliance with Purchasing Card Policy Is Minimal

Another important part of the COSO framework for effective internal controls is monitoring the
quality of performance of each control activity over time. For the purchase card program, the
monitoring process, as part of its routine operations, should periodically verify whether
employees are competently performing their control activities to help prevent and detect
fraudulent purchases. Deficiencies identified should be promptly brought to management’s
attention for action.

However, UCAR’s Contracts Department performed minimal monitoring of purchase
cardholders or division level compliance with program policy. UCAR managers and supervisors
did not actively monitor purchase cardholders to ensure that only authorized purchases were
made. There were no periodic checks of supervisor and cardholder compliance with purchase
guidelines, which could have identified if supervisors were timely approving transactions, and
cardholders were collecting and maintaining receipts for purchases or splitting purchases to
avoid purchase threshold limitations. As a result of minimal monitoring of the purchase card
program, there were increased opportunities for fraudulent uses of the purchase cards. The lack
of a monitoring program helped preclude UCAR from detecting the fraud that occurred.

Risk Assessment

¾ Periodic Risk Assessment Not Scheduled

A risk assessment provides management with knowledge of vulnerabilities and weaknesses in
program operations. It assesses the associated risk of changes in economic, industry and internal
operating conditions and the adequacy of the control activities currently in place to address or
mitigate these risks. As such, a regular scheduled risk assessment of the purchase card program
would likely have identified the inadequate segregation of cardholder duties and supervisor and
management oversight and monitoring.

However, UCAR has not conducted periodic assessments of the risks to its purchase card
program. As a result, weaknesses in the purchase card process as described herein were not
identified and corrected. Furthermore, these weaknesses were exploited by the fraudulent


                                                8
purchase cardholder. UCAR’s management has not developed a systematic manner of analyzing
risks, including identification and evaluation of significant threats or the likelihood of their
occurrence.

Control Environment

¾ Purchase Cardholders and Supervisors Not Sufficiently Trained

Cardholders and supervisors need to understand their purchase card responsibilities and
stewardship roles in order to effectively execute their duties. This requires that they not only
receive training before assuming their duties, but also receive periodic refresher training
thereafter. Additionally, it is important that UCAR management recognize the importance of
training and committing the necessary resources and time for staff to attend purchase card
training.

Purchase cardholders and supervisors did receive initial training. However they did not receive
any follow up refresher training. Without periodic reminders of their purchase card
responsibilities, supervisors and staff became lax in their duties and appeared to lose sight of the
importance of internal control checks and balances. In turn, this created an environment
conducive to errors and abuse and contributed to the fraud that occurred in the purchase card
program.

UCAR’s Actions in Response to the Discovery of Fraud

In response to learning of the fraud in its purchase card program, UCAR performed a risk
assessment in 2005 and had its internal auditor conduct a review of the purchase card controls.
Both identified many vulnerabilities and weaknesses in the UCAR purchase card program.
UCAR has taken steps to correct some of the more significant deficiencies; however, more
improvements are needed to ensure federal funds are used solely for authorized business
purposes. In July 2005 and again in August 2007, UCAR made revisions to its purchase card
policy. Notable changes to the policy included the following requirements:

   1. Supervisors approve lists of purchases by reviewing and initialing the receipts to
      authenticate the business purpose of the items acquired each month;

   2. Divisions maintain property lists of sensitive items valued under $5,000 (more specific
      guidance defining sensitive items was provided to help ensure staff consistently track
      items vulnerable to theft);

   3. Finance and Administration obtain and review reports from the purchase card vendor that
      may expose suspicious activities such as unusually high spending patterns, denied
      transactions, and disputes;

   4. Finance and Administration and Contracts jointly perform random compliance checks of
      cardholders to ensure that the purchase card policy requirements are followed;



                                                 9
   5. Cardholders and their supervisors receive annual refresher training (UCAR has developed
      an in-depth training course for this refresher training); and,

   6. Management periodically review the on-going need of each purchase card to keep the
      number of cardholders to the minimum necessary.

UCAR has moved toward implementing four of these six new requirements by a) informing the
supervisors to review and initial the receipts by the 20th of each month to authenticate the
business purpose of the purchases, b) providing guidance to departments regarding the
definitions of sensitive property and working with departments in an effort to attain consistency
among UCAR departments in tracking sensitive items vulnerable to theft, c) obtaining and
reviewing reports from the purchase card vendor that may expose suspicious activities, and d)
reducing the number of cardholders from over 200 down to 150 along with establishing a
requirement to periodically review cardholders’ need to have a purchase card.

While these changes should improve the accountability of the cardholders, more work is needed.
UCAR has not implemented random checks of purchase cardholders and their supervisors for
compliance with the current purchase card policy. UCAR also has not implemented the refresher
training program. Furthermore, the requirement to obtain reports from the purchase card vendor,
along with reports showing the status of monthly approvals of cardholders purchase activity
should be expanded beyond Finance and Administration to be more effective in helping
managers oversee the purchase card program. UCAR needs to expand these requirements to
ensure cardholder supervisors, division managers, and other managers of the purchase card
program receive and review these reports that identify whether cardholders are attempting to
make unauthorized purchases and whether supervisors are approving purchases in a timely
manner. Dissemination of this information about suspicious purchases and unapproved
purchases to all managers having responsibilities over purchase cards helps ensure purchase
transactions are authorized and necessary.

Additionally, the revised policy did not address a number of weaknesses that contributed to the
fraud not being detected as follows:
     1. Key responsibilities for ordering and receiving are not separated for equipment acquired
        with purchase cards including other compensating controls for items that are not sent
        through UCAR’s shipping and receiving department;
     2. Items costing less than $5,000 which are susceptible to theft are not inventoried; and,
     3. Periodic risk assessments are not performed to identify potential risks in the purchase
        card program.

In addition, while UCAR's internal auditor completed a review of the purchase card program and
issued a draft report to UCAR’s management in December 2006, the auditor left UCAR in
February 2007 and the final report has yet to be issued. The draft report reflected the
performance of a comprehensive and detailed review, containing over 30 findings and
recommendations. Many of the report findings substantiate the conditions identified in our
review as previously discussed, including a finding that purchase cardholders were able to both
order and receive delivery of items they purchased. The draft report states that 50 percent of the


                                                10
transactions tested did not include documentation verifying receipt by the UCAR central
receiving unit, which is independent of the cardholder. The internal auditor also reported 8
percent of, or 13 of 165, vendor-provided purchase lists tested were not approved by the
supervisor or were not in the purchase files, and 29 percent of, or 18 of 62, cardholders tested
had at least one monthly purchase list that had not been reviewed and approved by the
supervisor. In a couple of instances the listings were approved by individuals who did not have
authority to approve purchases, and some supervisors, who were cardholders, improperly
approved their own purchases. The internal auditor resigned x x position before reviewing and
responding to UCAR’s reply to the audit findings and recommendations. Because the internal
auditor position remains vacant, the draft audit report has yet to be finalized and issued to the
UCAR Board of Trustees.

An effective internal control environment includes providing for independent reviews and
assessments of the business operations, which an internal auditor is professionally trained to
perform. UCAR's size, volume of federal awards, and administrative and business environment
complexity warrant having an internal auditor. UCAR's Board of Trustees established the
Internal Auditing Department and its responsibilities are defined by the Board’s Audit and
Finance Committee, which approved the Department’s Charter on May 16, 2006. In accordance
with its charter, the Internal Auditing Department provides for independent and objective
assessments and recommendations that improve the operations of UCAR. The charter requires
all internal audit activities to remain free of influence from any source in order to maintain
independence and objectivity. The charter also requires all reports to be distributed to the Chair
of the Audit and Finance Committee, the Vice President of Finance and Administration, and
other interested parties if appropriate. The Audit and Finance Committee, along with input from
UCAR management, is responsible for staffing and overseeing work performed by the internal
auditor. The internal auditor reports administratively to the Vice President of Finance and
Administration and functionally to the Audit and Finance Committee. The internal auditor
assists UCAR in accomplishing its objectives by bringing a systematic and disciplined approach
to evaluate and improve the effectiveness of the organization’s risk management, control, and
governance processes.

However, the internal auditor position remained vacant through the end of our audit field work in
July 2007. Also, previous to UCAR hiring the most recent internal auditor, the position was
unfilled for five years. If, during this gap, an internal auditor had been present, he or she may
have identified the weaknesses in the purchase card program to management for action and
possibly have prevented the fraud. Having the internal auditor position filled on a permanent
basis is an important preventative control and could help UCAR avoid the potential cost and
embarrassment of future frauds.




                                                11
Recommendations:

We recommend that NSF direct UCAR to:

1. Fully implement the requirements of its purchase card policy and monitor compliance.
   Specifically;

   a. Complete the development of the monitoring process to ensure staff follow purchase card
      policy and procedures; and,

   b. Implement the refresher training program.

2. Continue to develop and improve its purchase card policy in the following areas:

   a. Separate key responsibilities for ordering and receiving items acquired with purchase
      cards;

   b. Conduct periodic inventories of items under $5,000 that are vulnerable to theft;

   c. Ensure key information is provided to the appropriate staff enabling them to carry out
      their responsibilities; and,

   d. Perform periodic risk assessments.

3. Address the internal audit concerns by:

   a. Staffing the internal auditor position as soon as possible;

   b. Requesting periodic internal audits of the purchase card program;

   c. Completing and issuing the draft Purchase Card internal audit report; and,

   d. Developing and implementing a corrective action plan to address all internal audit
      recommendations contained in the final audit report regarding the purchase card program.

UCAR Comments and OIG Response

UCAR stated their corrective actions to address all the above recommendations but disagreed to
conduct inventories of sensitive items costing less than $5,000 (recommendation 2b). UCAR
corrective actions should address the intent of our recommendations to implement a refresher
training program (recommendation 1b), ensure key information is provided to the appropriate
staff (recommendation 2c), fill the vacant internal auditor position (recommendation 3a), issue a
final internal audit report on purchase cards (recommendation 3c) and, develop and implement a
corrective action plan for the final audit report (recommendation 3d). Regarding the remaining
recommendations, we are less assured that UCAR’s proposed actions would sufficiently address
the recommendations and corresponding inadequacies we noted with internal controls involving



                                               12
monitoring the use of purchase cards (recommendation 1a), separating the receiving function
from the ordering function (recommendation 2a), performing periodic risk assessments
(recommendation 2d), and conducting audits by the internal auditor on the purchase card
program (recommendation 3b).

UCAR stated that after careful consideration, it concluded that conducting inventories of
sensitive items costing less than $5,000 is not cost effective. UCAR believes its current process
of tracking sensitive items, reporting annually the items on inventory lists (which UCAR stated
were current as of January 2008), and recovering property from separating employees is
sufficient to safeguard such property. Although, UCAR stated that it plans to continue assessing
the risks involved with sensitive property, we do not believe that enough has been done to
address our concerns. UCAR needs to provide their cost analysis that should sufficiently explain
how they concluded conducting inventories was not effective for these inventories, which are
valued at a total cost of $5 million. We believe it is imperative to conduct a minimum number
of inventories to determine whether UCAR has a problem with missing items that are vulnerable
to theft.

Regarding our recommendation 1a to complete the development of the monitoring process,
UCAR comments did not specifically address enforcing its written policy to have the Contract
Department conduct random checks of supervisors and cardholders’ compliance with purchase
card policies. Instead, it appears that UCAR is tasking the internal auditor to perform such
reviews. We are concerned that in taking on the responsibilities of the Contracts staff, the
internal auditor will be left with less time to provide independent reviews including a
comprehensive review of the purchase card system, along with assessments of other UCAR
business operations, as the internal auditor is professionally trained to evaluate and improve the
effectiveness of the organization’s risk management, control, and governance processes (see
recommendation 3b below regarding UCAR’s comments on conducting audits on the purchase
card program).

Regarding our recommendation 2a for separating key responsibilities amongst different staff for
ordering and receiving goods and services, UCAR stated that it has separated purchasing and
receiving responsibilities by requiring shipments of purchases to be centrally received, except for
field projects and where a cardholder directly makes a purchase at a local store. UCAR stated
that it will also provide additional training regarding separation of duties for receiving
department personnel. However, UCAR’s proposed actions for separating the ordering and
receiving responsibilities is incomplete in that it does not address whether UCAR’s receiving
department would be given access to the purchase card system to verify items received match the
description of the items entered by the purchase cardholder into the UCAR purchase card system
and recorded as an expense in the accounting system. Without this capability, the receiving
department would not be able to detect a cardholder concealing fraudulent purchases by entering
misleading descriptions of the purchased items into the purchase system. We maintain that
separating the ordering and receiving responsibilities is a fundamental principle of an effective
internal control system and particularly critical in purchase card programs, such as UCAR's,
where the cardholder is responsible for ordering the goods, processing the invoices, and
assigning descriptions to purchase transactions in the accounting system.




                                                13
Regarding our recommendation 2d for performing risk assessments, UCAR stated that a risk
assessment of the purchase card program is a high priority in its development of the annual
internal audit plan. However, UCAR comments on conducting risk assessments was incomplete
in omitting management's involvement in developing the risk assessment, which is important
given management's knowledge of vulnerabilities and weaknesses in program operations.
Regularly scheduled risk assessments conducted by management is essential to achieve the
effectiveness of a COSO compliant system of internal controls. While we applaud the idea of
involving the internal auditor in developing the risk assessment to maximize the synergy gained
from the knowledge of both the internal auditor and management working together, having
management involved in the process will make it a more effective assessment.

Regarding our recommendation 3b that UCAR request periodic internal audits of the purchase
card program, UCAR stated the internal auditor provided two reports on some of UCAR’s
control activities involving supervisors actively monitoring purchase cardholders to ensure that
only authorized purchases were made. While these reviews addressed important controls
activities, a thorough independent audit should address all of UCAR controls activities and the
four other elements of COSO’s integrated framework for internal controls, which is an effective
model to help detect and prevent fraud. Furthermore, rather than UCAR having the internal
auditor perform these limited reviews, a more effective use of the internal auditor would have the
auditor, as part of its next audit of the purchase card program, review the Contract Manager’s
random checks whether supervisors actively monitored purchase cardholders as part of auditor’s
risk assessment of the UCAR purchase card program. If the internal auditor finds the random
checks sufficiently completed, less testing would be required as part of the audit needed to
sufficiently review the purchase card program.

It is also important that the corrective actions UCAR describes in its response be included in
policies by assigning responsibility to individual positions, and establishing timeframes for
completing the corrective actions contained in the policies. Written policies and procedures will
help ensure the continued success in controlling the very high risk involved in purchase card
programs. NSF should work with UCAR to ensure that it develops an acceptable corrective
action plan to timely and completely resolve each audit recommendation.




                                               14
    2. UCAR Needs to Enhance Processes for Recording and Reporting Labor
Federal cost principles require that timekeeping systems accurately reflect the activity of each
employee and accounting systems show a valid reason for transferring labor costs to another
project. However, we found that UCAR was not adequately recording and supporting labor
charges including labor transfers. Specifically, 75 percent of the salaried UCAR employees we
interviewed were not recording all of their hours worked, 25 percent of the employees we tested
charged their time using budgeted rather than actual hours, 10 percent of the employees we
tested earned and used compensatory time without recording the hours in the timekeeping
system, and two employees stated that they were aware of staff on leave who recorded their time
as being at work. Furthermore, UCAR did not have detailed written justification to support 89
percent of the labor cost transfers we tested. Without a reliable basis of support, UCAR's $58
million of labor costs charged to NSF and other federal agencies annually are at risk of not being
accurately allocated. UCAR needs to develop a timekeeping system to accommodate salaried
employees that work more than 80 hours in a pay period, provide its employees specific
guidance on timecard completion, and provide more oversight of accounting for leave and labor
cost transfers.

Incomplete Accounting for Time

OMB Circular A-122, “Cost Principles for Non-Profit Organizations,” states that time reporting
must reflect the actual work activity of the employees. However, twelve, or 75 percent, of the
sixteen salaried employees we interviewed did not record all hours that they worked.4 These
employees, who are exempt from receiving overtime pay, recorded only 80 hours of labor effort
for each two week pay period even though they worked more. Most of the individuals
interviewed explained that they often volunteered to work in excess of 80 hours to accomplish
interesting and challenging research objectives.

Although most of these employees stated that they accounted for the extra time by distributing
80 hours between projects and other activities in proportion to their actual hours worked during
the pay period, a more capable time reporting system would accurately track actual hours or
percentages of time worked on projects and other activities. The system limitation creates the
possibility for overcharging and undercharging projects or other administrative activities. For
example, an employee spends 80 hours of his time on a project and charges that project 80 hours.
However, during the same pay period the employee also works 20 hours on a new research
project and administrative activities. The distribution of the employee’s labor charge is actually
80 percent on the original project as opposed to 100 percent as charged. The remaining 20
percent should be split between the new research project and administrative activities. If the
employee’s biweekly salary is $4,000, the 20 percent difference equates to $800 that is
overcharged to the original project and which should have been divided and charged to the new
research project and administrative activities.

Regarding the same example, another possibility exists of inappropriately lowering UCAR’s
indirect cost rates. When employees charge all of their time to research activities and do not
4
    We interviewed 16 salaried and 4 hourly employees.



                                                         15
account for administrative time, UCAR’s indirect costs will be understated and direct charges
will be overstated. As direct labor costs are incorrectly overstated and charged on awards, the
indirect cost rate will decrease because the rate is calculated by dividing indirect costs by direct
research costs. In effect, UCAR is recovering indirect costs as direct costs when it understates
indirect costs and overstates direct labor costs. An artificially low indirect cost rate incorrectly
overstates direct costs on awards and understates the administrative costs to operate UCAR
facilities.

UCAR, by not requiring its employees to record all the hours worked on their time card,
increases its risk of not accurately allocating salaries to over 400 federal awards provided by ten
federal agencies and departments. Since salaried employees make up a majority of UCAR’s $58
million annual labor costs, there is a high likelihood that a substantial amount of labor cost could
be mischarged to specific awards.
UCAR’s electronic timekeeping system does not allow salaried employees to account for more
than 8 hours a day or 80 hours every two weeks. In contrast, UCAR’s non-salaried staff, who
are eligible to receive overtime pay, are allowed to record hours in excess of 8 hours a day.
UCAR decided not to develop a time reporting system that would track actual hours or
percentages of time worked on projects and other activities, contending that the existing
timekeeping system is adequate as long as employees distribute the 80 hours in proportion to
their actual hours worked during the pay period. However, employees often are under the
misconception that if they charge the first 80 hours to projects, the extra hours are gratuitous and
do not have to be accounted for on timecards. Thus, they incorrectly believe that not accounting
for the extra hours has no effect on distributing costs to various awards. Specifically, they do not
realize that as they spend more time on other activities, a smaller portion of their salary should be
distributed to the original 80 hours and a proportionate share of the salary should be distributed
to the awards benefiting from the extra or gratuitous hours. Therefore, to help ensure an accurate
distribution of salary to federal awards, employees need to account for all time worked. This full
accounting of hours would help prevent mischarging some awards and ensure employees’
salaries are proportionately distributed across all awards.

Budgeted Labor, Instead of Actual, Charged

Federal cost principles require that timekeeping systems accurately reflect the actual activity of
each employee and specifically state that “budget estimates do not qualify as support for
charges” to federal awards. Contrary to these requirements, five UCAR employees, or 25
percent, of 20 employees included in our sample charged their time to federal awards based on
budget estimates of the labor effort they planned to spend on individual projects.

Prior to the beginning of the fiscal year, each division develops budgets based on the estimated
amount of time that each employee expects to spend on individual projects and other activities.
Periodically, UCAR revises these budget estimates during the year to more accurately reflect
actual employee effort. These revised estimates are also used by some employees to record their
time. However, if employees are using budgeted hours without considering actual time spent on
projects and other activities, employees are not accurately recording their time. By recording
budgeted rather than actual labor effort, UCAR is potentially overstating or understating the
labor costs it charges to individual federal awards and agencies. Based on our sample, UCAR


                                                 16
recorded and charged as much as $14.5 million of labor costs to federal awards based on budgets
without assurance that they represented actual costs benefiting those awards.

Our interviews of UCAR employees from a variety of positions, jobs, and pay rates found a
general belief that recording budgeted estimates instead of actual labor effort was an acceptable
means to allocate labor costs to federal awards. UCAR policies did not specifically restrict
employees from recording budget estimates as actual costs and employees were not sufficiently
trained on how to record time accurately. UCAR did not have regularly scheduled refresher
training or provide reminders to employees of the importance of accurate timekeeping.

Guidance Needed on Tracking Time Worked

In contrast to federal requirements to record actual time, two salaried employees, or 10 percent
of our sample, were earning and using compensatory time without recording the extra hours
earned and actual leave taken on their timecards. Because there was no record of compensatory
hours worked, the employees did not have any formally recognized earned hours against which
to charge leave. Accordingly, when they took leave, their timecards inaccurately indicated that
the employees were at work. The use of “unofficial” time off for extra hours worked is neither
acceptable nor permitted under the OMB requirements or UCAR’s own policies.

When employees do not record compensatory time earned, UCAR is at risk of mischarging
salaries to its federal awards, since there is little assurance that the extra hours are correctly
allocated to the benefiting federal awards. Furthermore, there is no documentation to evidence
that the earned compensatory time equals the compensatory time actually used by the employee.
Based on our sample, as much $5.8 million of UCAR salaries involved the use of compensatory
time without any formal documentation of actual hours worked or leave taken. Employees’
ability to record themselves on their timecards as “at work” when they are actually using
compensatory leave could lead to abuse by employees, especially those who do not have
sufficient vacation or sick leave balances.

UCAR does not officially allow employees to earn or use compensatory time and its automated
timekeeping system is not programmed to recognize it. UCAR needs to recognize the
importance of having accountability over actual hours worked and leave taken by establishing a
policy and procedure providing guidance to staff in what is allowable and not allowable and then
educate employees on the issue.

Leave Recording Needs Improvement

Salaried employees were also using sick and annual leave without recording leave on their
timecards. Two of the salaried employees we interviewed stated that they were aware of
employees taking time off for vacation or sick leave without recording the associated leave in the
timekeeping system. The employees’ rationale is that leave does not have to be accounted for if
80 hours in a pay period have been worked and recorded. Similar to the practice of not recording
hours worked in excess of 80 hours in a pay period, employees are working 80 hours and not
recording leave; or, similar to the unrecorded compensatory leave, this is another instance where



                                                17
timecards report employees to be working on research projects and other activities when in fact
they are not.5 Both situations are contrary to federal requirements.

This practice of not recording leave on time cards increases UCAR's risk of making inaccurate
salary allocations to its federal awards. To ensure all awards receive an equitable charge for
leave, UCAR uses a fringe benefit cost pool to track and allocate benefit costs. When employees
do not account for leave, fringe benefit costs will be understated and results in misallocated
costs. Because the salary will be allocated entirely to direct research activities and none to fringe
benefits, direct charges will be overstated and the fringe benefit rate understated. With over
1,000 salaried employees incurring approximately $5.3 million in annual and sick leave, the
potential exists for a sizable mischarge. An artificially low fringe benefit rate incorrectly
allocates costs to awards and understates the fringe benefit costs to operate UCAR facilities.
Furthermore, the ability of employees to record themselves as “at work” on their time cards
when they are actually on leave could lead to abuse, especially by employees who do not have
sufficient vacation or sick leave balances.

UCAR does not have a process that helps ensure requested leave is recorded on time cards for
salaried employees. Salaried employees are allowed to use vacation or sick leave with only a
verbal approval from their supervisor. UCAR does not use a leave request form. Therefore, the
only written documentation of leave taken is what the employee records on their time card.
Further, each organizational unit at UCAR has been given the discretion to decide whether a
supervisor must approve salaried employees’ time cards. As such, UCAR has entrusted most
salaried employees to accurately record their leave. In accordance with federal guidelines,
UCAR’s timekeeping policy allows salaried employees to complete and approve their own
timesheets without obtaining supervisory approval. However, if an employee chooses not to
record leave, there is no written accountability of either the leave requested or taken.
Accountability for reporting leave taken is left to the salaried employees.

Improved Support Needed for Labor Transfers

OMB Circular A-122 states that for a cost charged to an award to be allowable, it must be
adequately documented and specifically benefit the award. As such, any transfers of costs
between awards must be clearly justified and explained with written documentation.

UCAR did not sufficiently document reasons for 89 percent ($53,000) of the 45 labor cost
transfers we tested. The only documentation we found for many transfers were emails from
division administrators to project managers stating that the transfers were necessary in order to
charge costs to correct accounts. Project managers approved the labor transfers by responding
simply that they agreed without providing any additional reasons for the transfers. We learned
through interviews that often project managers did not understand why labor costs were being
transferred. We found no better explanation for labor cost transfers that used the standard UCAR
transfer form instead of an email. While we determined that 54 percent of the transfers were
appropriate and necessary to correct for charges made to closed award accounts, UCAR could

5
 UCAR timekeeping system for salaried employees allowed employees to record 80 hours for administrative
activities and research projects for each pay period without identifying the day of week the employee worked.


                                                        18
not provide reasons for the remaining 35 percent of the tested transfer entries. In addition,
UCAR does not have a time limit for the labor cost transfer process. Some of the transfers were
for charges occurring over six months before UCAR personnel initiated the transfer.

During our sampled period of 9 months, UCAR processed approximately 2,600 cost transfers
totaling $3.5 million. Without documentation to explain and support these labor cost transfers,
UCAR cannot ensure that costs were properly charged to the benefiting awards. UCAR did not
enforce its own requirement of providing supporting documentation for cost transfers between
awards. Furthermore, employees did not realize the importance of accurately recording their
labor effort or that federal regulations require supporting documentation to ensure that labor is
accurately charged to federal awards.

Timekeeping System Should Prevent the Use of Closed Accounts

Twenty-four of the 45 labor cost transfers we reviewed were for corrections because UCAR’s
timekeeping system allowed employees to charge labor effort to closed accounts. UCAR
processed an average of 300 labor adjustments a month ($400,000 worth) and based on our
sample results, it is likely that over half were related to charges to a closed account. As a result,
we estimate that UCAR spent approximately $12,000 a month, or $144,000 per year correcting
errors that its timekeeping system could have prevented. This occurred because the timekeeping
system allowed employees to record time to closed accounts. Also in some instances, the current
account codes were not communicated to employees.

Recommendations:

We recommend that NSF require UCAR to:
     1. Develop training, with regularly scheduled refresher updates, to better ensure labor
        effort is charged to federal awards accurately.
     2. Develop detailed policy and procedures that require:
         a. Actual (as opposed to budgeted) time be recorded on time cards, and
         b. All time earned and used be recorded on time cards.
     3. Implement a timekeeping system that allows all employees to record hours worked
        exceeding 80 hours per pay period.
     4. Develop a policy requiring employees to accurately record all leave taken.
     5. Require labor transfer requests be fully explained in writing and properly approved to
        better prevent unauthorized transfers of cost between awards.
     6. Limit the time allowed for labor cost transfer by requiring a higher level of approval.
     7. Implement programming checks into the timekeeping system to prevent employees from
        being able to charge closed or invalid accounts.




                                                 19
UCAR Comments and OIG Response

UCAR generally agreed with our recommendations but in one instance, proposed an alternative
corrective action. In lieu of concurring with our recommendation to implement a timekeeping
system that allows all employees to record hours worked exceeding 80 hours per pay period,
UCAR agreed to research other systems that will record all hours worked by employees along
with surveying other organizations including other federal laboratories and universities to
identify how they meet this requirement.

We are concerned that UCAR’s actions may not sufficiently address our recommendation
regarding developing a timekeeping system that meets OMB Circular A-122 “Cost Principles
for Non-Profit Organizations. While we agree with UCAR’s idea of surveying other federal
laboratories, UCAR should be aware that universities are required to follow unique OMB
guidance that is significantly different than OMB guidance for non-profit organizations.
Additionally, as UCAR researches potential solutions in developing and implementing an
acceptable time and effort system, UCAR’s $58 million of labor costs charged to NSF and other
federal agencies annually are at risk of not being accurately allocated.

For the remaining recommendations, UCAR agreed to develop an employee training program to
better ensure labor effort is accurately charged to federal awards, strengthen its policy and
procedures regarding the requirement to record actual (as opposed to budgeted) time on
timecards, improve its existing policy and procedures requiring employees to accurately record
all leave taken, develop a policy that will limit the time allowed to submit labor cost transfers,
and agreed to better manage closing its financial accounts to reduce the number of corrections
performed every pay period. Furthermore, UCAR has already taken action on our
recommendation to require labor transfer requests be fully explained in writing and properly
approved to better support the legitimacy of costs transfers between awards.

It is important that UCAR’s corrective action plan include timeframes for the completion of
proposed policies, and these policies include assigning responsibility to individual positions for
completing procedures contained within the policies. Written policies and procedures will help
ensure the continued success in controlling the proper allocation of labor costs. NSF should
work with UCAR to ensure that it develops an acceptable corrective action plan to timely and
completely resolve each audit recommendation.




                                                20
     Appendix




21
     Appendix




22
     Appendix




23
     Appendix




24
     Appendix




25
     Appendix




26
     Appendix




27
     Appendix




28
     Appendix




29
     Appendix




30
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

     Internet
     www.oig.nsf.gov

     Email Hotline
     oig@nsf.gov

     Telephone
     703-292-9158

     Toll-Free Anonymous Hotline
     1-800-428-2189

     Fax
     703-292-9158

     Mail
     Office of Inspector General
     National Science Foundation
     4201 Wilson Blvd., Suite 1135
     Arlington, VA 22230




                 31
